          Office of Inspector General




March 6, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Transmittal of Audit Report – Audit of Statistical Tests for Fiscal
         Year 2005 – Cost and Revenue Analysis (Report Number FF-AR-06-091)

This report presents the results of our audit of the statistical tests for the fiscal year
2005 Cost and Revenue Analysis (Project Number 05XD003FF000). We reviewed
tests of the Origin-Destination Information System-Revenue, Pieces, and Weight
(ODIS-RPW); the In-Office Cost System (IOCS); the Transportation Cost System
(TRACS); and the System for International Revenue and Volume Outbound-
International Origin-Destination Information System (SIRVO-IODIS). We conducted the
audit in support of the U.S. Postal Service Cost and Revenue Analysis.

The Postal Service generally conducted the tests of the ODIS-RPW, IOCS, TRACS,
and SIRVO-IODIS in accordance with established policies and procedures. Of the
275 tests observed, we identified testing errors in 39 tests. However, we do not believe
these errors affected the overall validity of the process. For example, data collection
technicians did not always communicate with test site personnel, follow procedures for
isolating mail to be sampled, use marking slips to identify sampled mail, bring required
test materials to the test site, level scales properly, follow scripted IOCS questions, or
verify identification codes for dispatch and routing. Also, statistical programs managers
did not always review mail exit points. Improvements are needed to maintain the
integrity of the statistical data. Since the Postal Service uses the results of statistical
tests in ratemaking, the data must be as accurate and consistent as possible.

We recommended management reinforce, through training, data collection procedures
to ensure technicians include all mail and protect it from double counting; bring required
test materials to the test site; level scales properly; follow scripted questions; and verify
dispatch and routing identification codes for tests of the ODIS-RPW, IOCS, TRACS, and
SIRVO-IODIS. We also recommended management reinforce policies for mail exit
point reviews to statistical programs managers. Management agreed with our findings
and recommendations, and the actions taken or planned should correct the issues
identified in the report. Management’s comments and our evaluation of these
comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Linda Libician-Welch, director, Field Financial – West, or me at (703) 248-2300.


   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
For John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Richard J. Strasser, Jr.
    J. Ron Poland
    Margaret A. Weir
    Steven R. Phelps
Audit of Statistical Tests For Fiscal Year 2005 –                    FF-AR-06-091
 Cost and Revenue Analysis


                                      TABLE OF CONTENTS

 Executive Summary                                                    i

 Part I

 Introduction                                                         1

     Background                                                       1
     Objective, Scope, and Methodology                                3
     Prior Audit Coverage                                             3

 Part II

 Audit Results                                                        5

     Observations                                                     5
     Test Results                                                     5
     Recommendations                                                  7
     Management’s Comments                                            7
     Evaluation of Management’s Comments                              7

 Appendix A. Abbreviations                                            8

 Appendix B. Fiscal Year 2005 Cost and Revenue Analysis:              9
             Summary of Observations of Data Collection Procedures

 Appendix C. Management’s Comments                                   10
Audit of Statistical Tests For Fiscal Year 2005 –                                     FF-AR-06-091
 Cost and Revenue Analysis


                                     EXECUTIVE SUMMARY
 Introduction                     This report presents the results of our audit of statistical
                                  tests for the fiscal year 2005 Cost and Revenue Analysis.
                                  We reviewed tests of the Origin-Destination Information
                                  System-Revenue, Pieces, and Weight (ODIS-RPW); the
                                  In-Office Cost System (IOCS); the Transportation Cost
                                  System (TRACS); and the System for International Revenue
                                  and Volume Outbound-International Origin-Destination
                                  Information System (SIRVO-IODIS). We conducted the
                                  audit in support of the U.S. Postal Service’s Cost and
                                  Revenue Analysis.

                                  The Postal Service conducts statistical tests to collect cost,
                                  revenue, and volume data. Our audit objective was to
                                  determine whether the Postal Service conducted these tests
                                  in accordance with established policies and procedures.
                                  We observed 110 data collectors performing cost and
                                  revenue analysis tests in 18 judgmentally selected districts
                                  and at two judgmentally selected airmail and international
                                  service center facilities. At the completion of our audits, we
                                  issued 20 audit reports to district managers.

 Results in Brief                 The Postal Service generally conducted its tests of the
                                  ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS in
                                  accordance with established policies and procedures. Of
                                  the 275 tests observed, we identified testing errors in
                                  39 tests. However, we do not believe these errors affected
                                  the overall validity of the process. For example, data
                                  collection technicians did not always communicate with test
                                  site personnel, follow procedures for isolating mail to be
                                  sampled, use marking slips to identify sampled mail, bring
                                  required test materials to the test site, properly level weigh
                                  scales, follow scripted IOCS questions, or verify
                                  identification codes for dispatch and routing. We also noted
                                  that statistical programs managers did not always review
                                  mail exit points.

 Summary of                       We recommended management reinforce, through training,
 Recommendations                  data collection procedures to ensure technicians include all
                                  mail and protect it from double counting, bring required test
                                  materials to the test site, level scales properly, follow
                                  scripted questions, and verify dispatch and routing
                                  identification codes for tests of the ODIS-RPW, IOCS,
                                  TRACS, and SIRVO-IODIS.



                                                    i
Audit of Statistical Tests For Fiscal Year 2005 –                                    FF-AR-06-091
 Cost and Revenue Analysis



                                  We also recommended management reinforce policies for
                                  mail exit point reviews to statistical programs managers.

 Summary of                       Management agreed with our recommendations, and stated
 Management’s                     they will reinforce policies for tests of the ODIS-RPW, IOCS,
 Comments                         TRACS, and SIRVO-IODIS and mail exit point reviews.
                                  Management’s comments, in their entirety, are included in
                                  Appendix C of this report.

 Overall Evaluation of            Management’s comments are responsive to our findings
 Management’s                     and recommendations, and the actions taken or planned
 Comments                         should correct the issues identified in this report.




                                                    ii
Audit of Statistical Tests For Fiscal Year 2005 –                                     FF-AR-06-091
 Cost and Revenue Analysis


                                           INTRODUCTION
 Background                       The Postal Reorganization Act of 1970 requires the U.S.
                                  Postal Service to break even financially over a period of
                                  years. Total revenue must equal total costs for each class
                                  of mail. The act specifies that each class or type of mail
                                  service should bear the direct and indirect costs attributable
                                  to it. To meet this requirement, the Postal Service must
                                  determine the cost, revenue, and volume of each mail class,
                                  subclass, and special mail service. However, Postal
                                  Service revenue and cost accounting systems do not
                                  provide revenue and cost information at the subclass and
                                  special service levels. Therefore, the Postal Service needs
                                  various statistical systems and special studies to develop
                                  estimates of costs, revenues, and volumes for categories of
                                  mail. The Postal Service uses these estimates to prepare
                                  rate cases and budgets, conduct cost studies, and measure
                                  mailflow and service performance.

 Origin-Destination               The Origin-Destination Information System-Revenue,
 Information System-              Pieces, and Weight (ODIS-RPW) is one of two probability
 Revenue, Pieces, and             sampling systems that estimate revenue, volume flow,
 Weight                           weight, and performance measurement. The Postal Service
                                  uses data from tests to develop proposals for new rates,
                                  assist in budget preparation, conduct management studies,
                                  and support management decisions concerning mailflow
                                  and service performance in transportation and operations.

                                  The ODIS-RPW test requires data collectors to
                                  systematically select mailpieces using a random start for all
                                  mail available on the randomly selected day. Data
                                  collectors record various mailpiece characteristics, such as
                                  revenue, weight, shape, indicia, barcode, postmark time,
                                  and origin and mail class.

                                  Handbook F-75, Data Collection User’s Guide for Revenue,
                                  Volume, and Performance Measurement Systems, states
                                  that data collectors are responsible for isolating, counting,
                                  and recording the appropriate mailpieces for the tests.

 In-Office Cost                   The In-Office Cost System (IOCS) provides data for
 System                           estimating labor costs in post offices and special processing
                                  facilities. The system does this by sampling what an




                                                    1
Audit of Statistical Tests For Fiscal Year 2005 –                                        FF-AR-06-091
 Cost and Revenue Analysis



                                  employee is doing at a given point in time and estimating
                                  the proportions of employee work time spent on various
                                  functions, including handling or processing categories of
                                  mail. Time proportions are then used to estimate the costs
                                  attributable to each class and subclass of mail and each
                                  special service.

                                  Handbook F-45, In-Office Cost System – Field Operating
                                  Instructions, states that every employee who participates in
                                  a reading is responsible for properly collecting required
                                  information. This includes the data collector, the sampled
                                  employee, and others who may provide information to the
                                  data collector about the sampled employee.

 Transportation Cost              The Transportation Cost System (TRACS) is a statistical
 System                           sampling and data collection system that provides
                                  information to estimate costs by subclass for the major cost
                                  accounts for interfacility purchased transportation. TRACS
                                  uses four separate sampling systems to collect data:
                                  highway, rail, passenger air, and network air. TRACS
                                  develops:

                                      •    Cubic-foot-mile distribution keys for highway and rail
                                           costs.

                                      •    Pound-mile distribution keys for passenger air costs.

                                      •    Pound distribution for night turn network air costs.

                                      •    Cubic foot distribution for day turn network air costs.

                                  Handbook F-65, Data Collection User’s Guide for Cost
                                  Systems, gives detailed instructions to data collectors for
                                  testing truck, air, and rail trips.

 System for                       The System for International Revenue and Volume
 International Revenue            Outbound-International Origin-Destination Information
 and Volume Outbound-             System (SIRVO-IODIS) is one of two sampling systems that
 International Origin-            estimate revenue, volume, and weight of international mail
 Destination Information          for the Postal Service. Postal Service management uses
 System                           SIRVO-IODIS data to assist in budgeting and planning,
                                  based on forecasts of mail volume, workloads, and overall
                                  productivity.




                                                     2
Audit of Statistical Tests For Fiscal Year 2005 –                                      FF-AR-06-091
 Cost and Revenue Analysis


                                  Handbook F-85, Data Collection User’s Guide for
                                  International Revenue, Volume, and Performance
                                  Measurement Systems, gives detailed instructions to data
                                  collectors for conducting tests of international mail.

    Objective, Scope, and         The objective of our audit was to determine whether the
    Methodology                   Postal Service conducted statistical tests to collect cost,
                                  revenue, and volume data in accordance with established
                                  policies and procedures. To accomplish our objective,
                                  we conducted fieldwork from November 2004, through
                                  July 2005. We observed 110 judgmentally selected data
                                  collectors performing cost and revenue analysis tests in
                                  18 judgmentally selected districts and two judgmentally
                                  selected airmail and international service center facilities.

                                  Specifically, we judgmentally selected and observed:1

                                      •    70 ODIS-RPW tests
                                      •    168 IOCS tests
                                      •    19 TRACS tests
                                      •    18 SIRVO-IODIS tests

                                  We interviewed the data collectors performing selected tests
                                  and reviewed the reports of each test provided by district
                                  statistical programs managers.

                                  We conducted this audit from November 2004 through
                                  March 2006 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as we considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments where appropriate. We also issued interim
                                  reports to 20 district managers.

    Prior Audit Coverage          The U.S. Postal Service Office of Inspector General issued,
                                  Audit of Statistical Tests for Fiscal Year 2004 – Cost and
                                  Revenue Analysis (Report Number FF-AR-05-076, March 8,
                                  2005). The report stated that employees did not always
                                  follow instructions for classifying and sampling data and
                                  conducting readings. Also, employees did not always enter
                                  data correctly into the Computerized On-Site Data Entry
                                  System (CODES).
1
    See table in Appendix B.




                                                    3
Audit of Statistical Tests For Fiscal Year 2005 –                                 FF-AR-06-091
 Cost and Revenue Analysis



                                  Headquarters Statistical Programs directed district
                                  managers of Statistical Programs to reinforce, through
                                  training, the correct procedures for classifying mail,
                                  sampling mailpieces, returning mail to the mailstream,
                                  balancing scales, and loading data into the CODES laptop.
                                  Further, management instructed statistical programs
                                  managers to conduct process reviews in accordance with
                                  policy.




                                                    4
Audit of Statistical Tests For Fiscal Year 2005 –                                            FF-AR-06-091
 Cost and Revenue Analysis


                                           AUDIT RESULTS
    Observations                  The Postal Service generally conducted tests of its ODIS-
                                  RPW, IOCS, TRACS, and SIRVO-IODIS in accordance with
                                  established policies and procedures. However, we
                                  observed the following test errors.

    Test Results                  ODIS-RPW:

                                  We observed 70 ODIS-RPW tests and identified 24 tests
                                  where data collectors incorrectly applied procedures.2
                                  Specifically, data collectors did not:
                                  .
                                    • Communicate with test site personnel on the day of
                                         the test in four tests.

                                      •    Follow procedures for isolating and flagging mail to
                                           be sampled in two tests.

                                      •    Use marking slips to identify sampled mail in
                                           five tests.

                                      •    Bring required test materials to eight test sites.

                                      •    Follow procedures to level weigh scales in two tests.

                                      •    Enter test data correctly into CODES in one test.

                                      •    Correctly measure one parcel in one test.

                                      •    Apply the correct mailpiece skip interval in one test.

                                  Additionally, we noted that in five districts, the statistical
                                  programs managers did not review mail exit points, as
                                  required.3 Postal Service policy requires an on-site review
                                  at least once per quarter if an ODIS-RPW test is conducted
                                  in the facility. Managers cited various causes for why they
                                  did not conduct reviews. If mail exit points are not reviewed
                                  as required, the precision of sample estimates could be
                                  impacted.


2
 See table in Appendix B.
3
 Handbook F-75, Data Collection User's Guide for Revenue, Volume, and Performance Measurement Systems,
October 2003, Appendix J, pages J-25 and J-26.




                                                     5
Audit of Statistical Tests For Fiscal Year 2005 –                                       FF-AR-06-091
 Cost and Revenue Analysis


                                  IOCS:

                                  We observed 168 IOCS tests and identified four tests where
                                  data collectors applied procedures incorrectly.4 Specifically,
                                  in one test each, a data collector:

                                      •    Did not follow scripted questions and asked leading
                                           questions.

                                      •    Did not properly identify a sampled employee’s roster
                                           designation at the time of the reading.

                                      •    Incorrectly ended a test because they misinterpreted
                                           criteria for transferred employees.

                                      •    Did not bring the required scale when conducting the
                                           test.

                                  TRACS:

                                  We observed 19 TRACS tests and identified three tests
                                  where data collectors incorrectly followed procedures.5
                                  Specifically, data collectors:

                                      •    Did not properly verify the characters of the dispatch
                                           and routing identification codes on sampled items in
                                           two tests.

                                      •    Incorrectly identified an Express Mail piece in one
                                           test.

                                  SIRVO-IODIS:

                                  We observed 18 SIRVO-IODIS tests and identified
                                  eight tests where data collectors did not follow procedures
                                  to level weigh scales.

                                  During our observations, we discussed errors in the
                                  ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS tests with
                                  data collectors and district statistical programs managers.
                                  Postal Service officials agreed with the errors we identified
                                  and made the appropriate corrections when possible.

4
    See table in Appendix B.
5
    See table in Appendix B.




                                                     6
Audit of Statistical Tests For Fiscal Year 2005 –                                       FF-AR-06-091
 Cost and Revenue Analysis




 Recommendation                   We recommend the vice president, controller:

                                  1. Reinforce, through training, data collection procedures to
                                     ensure all mail is included and protected from double
                                     counting, required test materials are brought to the test
                                     site, scales are leveled properly, scripted In-Office Cost
                                     System questions are followed, and dispatch and routing
                                     identification codes are verified.

 Management’s                     Management agreed with our recommendation, and stated
 Comments                         by March 15, 2006, they will instruct managers, Statistical
                                  Programs to reinforce, through training, data collection
                                  procedures to ensure technicians include all mail and
                                  protect it from double counting, bring required test materials
                                  to the test site, level scales properly, follow scripted
                                  questions, and verify dispatch and routing identification
                                  codes.

 Recommendation                   2. Reinforce policies for mail exit point reviews to statistical
                                     programs managers.

 Management’s                     Management agreed with our recommendation, and stated
 Comments                         they had detailed the policies in correspondence on
                                  October 11, 2005, since mail exit point reviews are a fiscal
                                  year 2006 National Performance Assessment Indicator for
                                  managers, Statistical Programs. Management also stated
                                  by March 15, 2006, they will reinforce the policies for
                                  managers, Statistical Programs, to conduct mail exit point
                                  reviews in accordance with detailed Statistical Programs
                                  policies.

 Evaluation of                    Management’s actions taken or planned are responsive to
 Management’s                     the recommendations and should correct the issues
 Comments                         identified in the findings.




                                                    7
Audit of Statistical Tests For Fiscal Year 2005 –                                  FF-AR-06-091
 Cost and Revenue Analysis



                              APPENDIX A. ABBREVIATIONS

CODES                             Computerized On-Site Data Entry System

IOCS                              In-Office Cost System

ODIS-RPW                          Origin-Destination Information System-Revenue, Pieces,
                                  and Weight

SIRVO-IODIS                       System for International Revenue and Volume
                                  Outbound-International Origin-Destination Information
                                  System

TRACS                             Transportation Cost System




                                                    8
 Audit of Statistical Tests For Fiscal Year 2005 –                                                       FF-AR-06-091
  Cost and Revenue Analysis




            APPENDIX B. FISCAL YEAR 2005 COST AND REVENUE
               ANALYSIS: SUMMARY OF OBSERVATIONS OF
                    DATA COLLECTION PROCEDURES6



                                     ODIS-RPW                    IOCS                  TRACS            SIRVO-IODIS




                                              Total                  Total                  Total                 Total
                      Week        Number     Number      Number     Number     Number      Number     Number     Number
                       Data       of Tests      of       of Tests      of      of Tests       of      of Tests      of
District             Collected   Observed     Errors    Observed     Errors   Observed      Errors   Observed     Errors
Northern Ohio         11/15/04       4           0          9           0         1            1         -             -
Mississippi            12/6/04       4           1          8           0         1            0         -             -
Greater South
Carolina               12/6/04       3           4          8           0         1            0         -             -
Central New
Jersey                12/13/04       3           0          8           0         1            0         -             -
Greensboro              1/3/05       4           0         8            1         1            1         -             -
Lakeland               1/10/05       4           0         10           0         1            0         -             -
Sacramento             1/10/05       4           4         8            0         1            0         -             -
San Diego              1/10/05       4           1         10           0         1            1         -             -
Portland               1/10/05       4           0         10           1         1            0         -             -
Southeast New
England                1/10/05       4           3          9           0         1            0         -             -
Detroit                1/18/05       3           0         9            0         1            0         -             -
Fort Worth             2/28/05       4           0         11           0         1            0         -             -
Dallas                 3/21/05       5           0         14           1         2            0         -             -
Erie                    4/4/05       4           4         8            0         1            0         -             -
Colorado/Wyoming        6/6/05       4           0         9            0         1            0         -             -
Central                                                    12           0         1            0         -             -
Pennsylvania           6/20/05        4          1
Caribbean              6/20/05       4          5           9           1         1            0         -             -
Richmond               7/11/05       4          1           8           0         1            0         -             -
Triboro                5/17/05        -          -          -           -          -           -        10             0
San Francisco          1/10/05        -          -          -           -          -           -        8              8
Total                                70         24         168          4         19           3        18             8




 6
  Although the percentage of tests with errors appears high, each test contains multiple records and fields.
 Therefore, the percentage of erroneous test entries is much lower than the total number of tests containing errors.


                                                           9
Audit of Statistical Tests For Fiscal Year 2005 –        FF-AR-06-091
 Cost and Revenue Analysis


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                    10
Audit of Statistical Tests For Fiscal Year 2005 –        FF-AR-06-091
 Cost and Revenue Analysis




                                                    11
